,,~ ~
( f:
~..
  ''i :il'''cIJO
 ~'~4'''V'CE$'Ù'.
                        DEPARTMENT
                        DEPARTMENTOF
                                   OFHEALTH
                                     HEALTH&.
                                            &. HUMAN
                                               HUMAN SERVICES
                                                     SERVICES                                                                Office
                                                                                                                             Office of
                                                                                                                                    of Inspector
                                                                                                                                       Inspector General


                                                                                                                             Washington,
                                                                                                                                                 General


                                                                                                                                         D.C. 20201
                                                                                                                             Washington, D.C. 20201




                                                                       NOV- -552008

                                                                       NO       2008
                    TO:                    Kerry Weems
                                           Kerry Weems
                                           Acting Administrator
                                           cenier:;r
                                           centers;or~        ~dd
                                                                Services

                                                                    Services


                    FROM:
                                    0:;~~y
                                           ~E.
                                           ~E. Ven
                                               Vengrin
                                               Inspector
                                    ß:;~ly Inspector     General
                                                     General  forforAudit
                                                                     AuditServices

                                                                           Services


                    SUBJECT:
                    SUBJECT: Review of 
   Review of Thomas Jefferson University Hospital's
                                                                                 Hospital's Reported
                                                                                            Reported Fiscal
                                                                                                     Fiscal Year
                                                                                                            Year 2006
                                                                                                                 2006
                                           Wage Data (A-03-07-00024)


                    Attached is an advance copy of                 of our final report on Thomas Jefferson University Hospital's       Hospital's (the
                                                                                                                                                   (the
                    Hospital) reported fiscal year (FY) 2006 wage data.                          We will
                                                                                           data. We   will issue
                                                                                                              issue this
                                                                                                                       this report
                                                                                                                             report to the Hospital
                    within      5 business       days.     This     review
                    within 5 business days. This review is one in a series of 
 is one in a series of reviews
                                                                                                      reviews ofthe ofthe
                                                                                                                    accuracy  accuracy of hospitals'
                                                                                                                             of
          hospitals'
                    wage data, which the Centers for Medicare & Medicaid Services                    Services (CMS) uses in developing its
                    wage indexes.

                    Under the inpatient
                                inpatient prospective
                                          prospective payment system for acute-care
                                                                            acute-care hospitals,
                                                                                        hospitals, Medicare
                                                                                                   Medicare Part A pays
                                                                                                             Par A pays
                    hospitals at predetermined, diagnosis-related rates
                                                                    rates for
                                                                          for patient discharges.  The payment system
                                                                                      discharges. The            system
                    base rate
                    base rate includes
                               includes aa labor-related
                                            labor-related share.     adjusts the labor-related
                                                          share. CMS adjusts      labor-related share
                                                                                                share by the wage index
                    applicable to the area in which a hospital is located.

                    Our objective was to determine whether the Hospital complied with Medicare requirements for
                    reporting wage data in its FY 2006 Medicare cost report.

                    The Hospital did not fully comply with Medicare requirements for reporting wage data in its
                    FY 2006 Medicare cost report.                      Specifically, the
                                                           report. Specifically,     the Hospital overstated its wage data by
                    $12,248,742          and
                    $12,248,742 and 412,397     412,397
                                            hours.            hours.
                                                   Our correction of 
                           Hospital's errors
                                                                        Our correction of the Hospital's     errors increased
                                                                                                                    increased the
                                                                                                                              the average
                                                                                                                                   average
                    hourly wage rate approximately 0.6                     percent.   The  errors
                                                                       0.6 percent. The errors in in reported  wage   data occurred because
                    the Hospital did not sufficiently review and reconcile wage data to ensure that all amounts
                    reported were accurate, accurate, supportable,
                                                           supportable, and and in
                                                                                in compliance
                                                                                   compliance withwith Medicare
                                                                                                       Medicare requirements.
                                                                                                                   requirements. If the
                    Hospital had not revised the wage data in its FY 2006 cost report,               report, the FY 2009 wage index
                                                                                                                                  index for
                                                                                                                                        for
                    the Hospital's statistical
                                            statistical areaarea would
                                                                   would have
                                                                           have been
                                                                                 been understated,
                                                                                       understated, which
                                                                                                      which would
                                                                                                             would have
                                                                                                                     have resulted in
                    underpayments
                    underpayments to all of 
 to all of the hospitals
                                                                  hospitals that use
                                                                                 use this
                                                                                      this wage index.
Page 2 – Kerry Weems


We recommend that the Hospital implement review and reconciliation procedures to ensure that
the wage data reported in future Medicare cost reports are accurate, supportable, and in
compliance with Medicare requirements.

In its comments on our draft report, the Hospital disagreed with our first recommendation to
submit a revised FY 2006 cost report to correct the wage data overstatements, stating that the
adjustments had already been submitted to the fiscal intermediary. The Hospital also said that it
would work to strengthen its review and reconciliation procedures. After reviewing the
Hospital’s comments and information provided by the intermediary, we deleted our first
recommendation from this final report.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at
(215) 861-4470 or through e-mail at Stephen.Virbitsky@oig.hhs.gov. Please refer to report
number A-03-07-00024.


Attachment
   ~ SLI\VICES

~,,~~' ~              DEPARTMENT  OF
                      DEPARTMENT OF  HEALTH
                                    HEALTH   & HU SERVICES
                                           & HUMAN SERVICES                                                    OFFICE
                                                                                                               OFFICE OF
                                                                                                                      OF INSPECTOR
                                                                                                                          INSPECTOR GENERAL
                                                                                                                                    GENERAL

~ J#
                                                                                                          Offce
                                                                                                               Officeof
                                                                                                               Public
                                                                                                                      ofAudit
                                                                                                                         AuditServices,
                                                                                                               Public Ledger
                                                                                                                               Services, Region
                                                                                                                      Ledger Building,
                                                                                                                                         Region III
                                                                                                                              Building, Suite
                                                                                                                                                III
                                                                                                                                         Suite316
                                                                                                                                              316
~";::::Jr-                                                                                                     150
                                                                                                               150 S. Independence Mall
                                                                                                                                    Mall West
                                                                                                                                          West
                                                                                                               Philadelphia,
                                                                                                               Philadelphia,PA
                                                                                                                             PA19106-3499
                                                                                                                                 19106-3499


                                                                     NOV 11222008

                                                                     NOV      2008
                 Report Number:
                        Number: A-03-07-00024
                                A-03-07-00024

                     Thomas Lewis
                 Mr. Thomas   Lewis
                           and Chief
                 President and  Chief Executive
                                      Executive Officer
                                                 Officer
                                     University Hospital
                 Thomas Jefferson University    Hospital
                     South 11
                 111 South  11 th Street
                 Philadelphia, Pennsylvania 19107
                                               19107

                 Dear Mr.
                 Dear Mr. Lewis:

                          Lewis:

                 Enclosed is the U.S. Department of Health
                 Enclosed is the U.S. Deparent of                          Health     andServices
                                                                                 and Human Human  (HHS),Services
                                                                                                         Offce of
   (HHS), Officeof Inspector
                 General       (GIG),      final   report     entitled
                 General (OIG), final report entitled "Review of 
         "Review       of Thomas       Jefferson    University Hospital's
                                                                                                                                 Hospital's
                                                                                                                                                      ~"..y
                 Reported
                 Reported Fiscal Fiscal     Year
                                 Year 2006 Wage     2006
                                                Data." We wil Wage      copy of 
 We will forward a copy of this report to the HHS action
                                                              forward a Data."

                 officialnoted
                 offcial      notedon   onthethe following
                                                   followingpage   page for for review
                                                                                 review andand anyany action
                                                                                                        action deemed
                                                                                                                   deemed necessary.
                                                                                                                          necessary.

                 The HHS action official    offcial wil  willmake
                                                                makefinal finaldetermination
                                                                                  determinationas  astotoactions
                                                                                                          actionstaken
                                                                                                                   takenononall
                                                                                                                             all matters
                                                                                                                                 matters reported.
                                                                                                                                          reported.
                 We     request     that   you    respond       to  this   official     within
                 We request that you respond to this offcial within 30 days from the date of 
 30 days   from  the  date of this letter.
                                                                                                                                 letter. Your
                 response should present any comments or additional information that you believe may have a
                 bearing on
                 bearng       on the final determination.
                                                 determination.

                 Pursuant
                 Pursuant to the to  the principles
                                  principles of         of the   Freedom
                                                           the Freedom of 
                Act, 5 U.S.c. §§ 552,
                                                                            of Information Act,             552, as amended by
                 Public Law 1104-231,   04-231, GIG OIG reports
                                                         reports generally
                                                                    generally are
                                                                              are made
                                                                                  made available to the public to the extent the
                 information is not subject to exemptions in the             the Act
                                                                                  Act (45
                                                                                      (45 CFR
                                                                                          CFR part
                                                                                               part 5). Accordingly, this report
                                                                                                    5). Accordingly,
                 will
                 will be be posted
                              posted on   on the
                                               the Internet
                                                   Internet at
                                                             at http://oig.hhs.gov.
                                                                 htt://oig.hhs.gov.



                  If you have any questions or comments about this report, please do not hesitate to call me at
                 .(215)
                 . (215) 861-4470,
                         861-4470, or
                                   or contact
                                      contact Bernard
                                              Bernard Siegel,
                                                      Siegel, Audit
                                                              Audit Manager,
                                                                     Manager, at
                                                                              at (215)
                                                                                 (215) 861-4484  or through
                                                                                       861-4484 or           e-mail
                                                                                                    through e-mail
                  at Bernard.Siegel@oig.hhs.gov.   Please
                  at Bernard.Siegel(foig.hhs.gov. Please  refer to report number  A-03-07-00024
                                                                          number A-03-07-00024 inin all
                  correspondence.




                                                                           ~l.~
                                                                             Sincerely,



                                                                             Stephen
                                                                             Stephen Virbitsky
                                                                                     Virbitsky

                                                                             Regional Inspector General
                                                                             Regional
                                                                               for Audit Services
                                                                               for


                 Enclosure
Page 2 – Mr. Thomas Lewis


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF THOMAS JEFFERSON
   UNIVERSITY HOSPITAL’S
 REPORTED FISCAL YEAR 2006
        WAGE DATA




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-03-07-00024
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. The Centers for
Medicare & Medicaid Services (CMS) adjusts prospective payments by the wage index
applicable to the area in which each hospital is located. CMS calculates a wage index for each
metropolitan area, known as a core-based statistical area (CBSA), as well as a statewide rural
wage index for each State. These calculations use hospital wage data (which include wages,
salaries, and related hours) collected 4 years earlier to allow time for the collection of complete
cost report data from all inpatient prospective payment system hospitals and for reviews of
hospital wage data by CMS’s fiscal intermediaries. For example, CMS based the fiscal year
(FY) 2009 wage indexes on wage data collected from hospitals’ Medicare cost reports for their
FYs that began during Federal FY 2005 (October 1, 2004, through September 30, 2005).

CMS bases each wage index on the average hourly wage rate of the applicable hospitals divided
by the national average rate. A hospital’s wage rate is the quotient of dividing total dollars
(numerator) by total hours (denominator). Arriving at the final numerator and denominator in
this rate computation involves a series of calculations.

CMS is required to update wage indexes annually in a manner that ensures that aggregate
payments to hospitals are not affected by changes in the indexes. CMS is also required to update
payments to hospitals by an applicable percentage based on the market basket index, which
measures the inflationary increases in hospital costs. Hospitals must accurately report wage data
for CMS to determine the equitable distribution of payments and ensure the appropriate level of
funding to cover hospital costs.

Thomas Jefferson University Hospital (the Hospital) is a 911-bed hospital in Philadelphia,
Pennsylvania. The Hospital is 1 of 46 hospitals in a Philadelphia CBSA. The Hospital reported
wage data of $407.9 million and 11.6 million hours in its FY 2006 (July 1, 2005, through June
30, 2006) Medicare cost report, which resulted in an average hourly wage rate of $35.25.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
reporting wage data in its FY 2006 Medicare cost report.

SUMMARY OF FINDINGS

The Hospital did not fully comply with Medicare requirements for reporting wage data in its
FY 2006 Medicare cost report. Specifically, the Hospital reported the following inaccurate wage
data, which affected the numerator and/or denominator of its wage rate calculation:

   •   unallowable wage-related benefit costs, which overstated wage data by $6,567,833;



                                                  i
   •   misstated salaries and hours, which overstated wage data by $5,158,973 and 423,166
       hours;

   •   understated excluded salaries, which overstated wage data by $342,938 and 4,715 hours;

   •   unallowable costs for Medicare Part B services, which overstated wage data by $298,815
       and understated 4,951 hours; and

   •   misstated contract service costs, which understated wage data by $119,817 and 10,533
       hours.

These errors occurred because the Hospital did not sufficiently review and reconcile its reported
wage data to supporting documentation to ensure that the data were accurate, supportable, and in
compliance with Medicare requirements. As a result, the Hospital overstated its wage data by a
total of $12,248,742 (numerator) and 412,397 hours (denominator) for the FY 2006 Medicare
cost report period. Our correction of the Hospital’s errors increased the average hourly wage rate
approximately 0.6 percent from $35.25 to $35.45. If the Hospital had not revised the wage data
in its cost report, the FY 2009 wage index for the Hospital’s CBSA would have been
understated, which would have resulted in underpayments to all of the hospitals that use this
wage index.

RECOMMENDATION

We recommend that the Hospital implement review and reconciliation procedures to ensure that
the wage data reported in future Medicare cost reports are accurate, supportable, and in
compliance with Medicare requirements.

THOMAS JEFFERSON UNIVERSITY HOSPITAL COMMENTS

In its comments on our draft report, the Hospital agreed with or understood and accepted most of
our findings. However, the Hospital disagreed in part with our finding regarding pension benefit
costs, surmising that we based the finding on CMS guidance that became effective after the audit
period. Specifically, the Hospital stated that, although disallowance of $4,240,513 of normal
costs would be consistent with CMS guidance as amended in March 2008, the normal costs were
allowable based on a plain-language interpretation of CMS guidance available for the Hospital’s
FY 2006 cost report period.

In addition, the Hospital disagreed with our first recommendation to submit a revised FY 2006
cost report to correct the wage data overstatements. The Hospital stated that the adjustments had
already been submitted to the fiscal intermediary; therefore, it was not necessary to submit a
revised FY 2006 cost report. The Hospital objected that all of our findings had been reported to
the fiscal intermediary and incorporated in the Public Use File prior to release of the report and
the full and fair consideration of the Hospital’s comments. The Hospital added that it had
submitted a “Request for Correction to Public Use Files” related to the pension benefit cost
adjustment. The Hospital also said that it would work to strengthen its review and reconciliation
procedures. The Hospital’s comments are included as Appendix B.


                                                ii
OFFICE OF INSPECTOR GENERAL RESPONSE

With respect to our finding regarding pension benefit costs, in March 2008, CMS clarified, but
did not change the original intent of, its manual provisions on how to report pension costs. CMS
guidance in effect for the Hospital’s FY 2006 cost report period (earlier guidance) required
hospitals to make payments of their current liability for both normal costs and actuarial accrued
liability costs. In this case, because the plan’s assets exceeded its normal costs plus its actuarial
accrued liability, there was no current liability to be funded, and the Hospital was not obligated
to make payments. Therefore, any payments that the Hospital made during the period were
excessive payments that could not be claimed for the audit period. Accordingly, our conclusion
regarding these costs remains unchanged.

After reviewing the Hospital’s comments and information provided by the fiscal intermediary,
we deleted our first recommendation from this final report.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicare Inpatient Prospective Payment System ................................................1
              Wage Indexes........................................................................................................1
              Thomas Jefferson University Hospital..................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATION................................................................................3

          ERRORS IN REPORTED WAGE DATA .......................................................................4
              Unallowable Wage-Related Benefit Costs............................................................4
              Misstated Salaries and Hours................................................................................5
              Understated Excluded Salaries and Hours............................................................6
              Unallowable Costs for Part B Services.................................................................6
              Misstated Contract Service Costs ........................................................................6

          CAUSES OF WAGE DATA REPORTING ERRORS ....................................................7

          MISSTATED WAGE DATA AND POTENTIAL UNDERPAYMENTS .....................7

          RECOMMENDATION ....................................................................................................7

          THOMAS JEFFERSON UNIVERSITY HOSPITAL COMMENTS ..............................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................8

APPENDIXES

          A – CUMULATIVE EFFECT OF FINDINGS

          B – THOMAS JEFFERSON UNIVERSITY HOSPITAL COMMENTS




                                                                    iv
                                                  INTRODUCTION

BACKGROUND

Medicare Inpatient Prospective Payment System

Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. In fiscal year
(FY) 2008, the Centers for Medicare & Medicaid Services (CMS) expected Medicare Part A to
pay inpatient hospitals approximately $120.5 billion.

Wage Indexes

The geographic designation of hospitals influences their Medicare payments. Under the
inpatient prospective payment system, CMS adjusts payments through wage indexes to reflect
labor cost variations among localities. 1 CMS uses the Office of Management and Budget
(OMB) metropolitan area designations to identify labor markets and to calculate and assign wage
indexes to hospitals. In 2003, OMB revised its metropolitan statistical area definitions and
announced new core-based statistical areas (CBSA). CMS calculates a wage index for each
CBSA and a statewide rural wage index for each State for areas that lie outside CBSAs. The
wage index for each CBSA and statewide rural area is based on the average hourly wage rate of
the hospitals in those areas divided by the national average hourly wage rate. All hospitals
within a CBSA or within a statewide rural area receive the same labor payment adjustment.

To calculate wage indexes, CMS uses hospital wage data (which include wages, salaries, and
related hours) collected 4 years earlier to allow time for CMS to collect complete cost report data
from all inpatient prospective payment system hospitals and for CMS’s fiscal intermediaries to
review these data. For example, CMS based the wage indexes for FY 2009, which began
October 1, 2008, on wage data collected from hospitals’ Medicare cost reports for their FYs that
began during Federal FY 2005 (October 1, 2004, through September 30, 2005). A hospital’s
wage rate is the quotient of dividing total dollars (numerator) by total hours (denominator).
Arriving at the final numerator and denominator in this rate computation involves a series of
calculations. Inaccuracies in either the dollar amounts or hours reported can have varying effects
on the final rate computation.

Section 1886(d)(3)(E) of the Social Security Act (the Act) requires that CMS update wage
indexes annually in a manner that ensures that aggregate payments to hospitals are not affected
by changes in the indexes. Hospitals must accurately report wage data for CMS to determine the
equitable distribution of payments. Further, section 1886(d)(3)(A)(iv) of the Act requires CMS
to update labor and nonlabor average standardized amounts by an applicable percentage increase
specified in section 1886(b)(3)(B)(i). The percentage increase is based on the market basket
index, which measures inflationary increases in hospital costs. The inclusion of unallowable
costs in wage data could produce an inaccurate market basket index for updating prospective
payments to hospitals.
1
 The inpatient prospective payment system wage index or a modified version also applies to other providers, such as
outpatient hospitals, long term care hospitals, inpatient rehabilitation facilities, inpatient psychiatric facilities, skilled
nursing facilities, home health agencies, and hospices.

                                                              1
Thomas Jefferson University Hospital

Thomas Jefferson University Hospital (the Hospital) is a 911-bed hospital with three locations in
Philadelphia, Pennsylvania: Thomas Jefferson University Hospital, Methodist Hospital, and the
Jefferson Hospital for Neurosciences. The Hospital is 1 of 46 hospitals in a Pennsylvania CBSA.
The Hospital submitted to CMS a consolidated FY 2006 Medicare cost report covering the
period July 1, 2005, through June 30, 2006.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
reporting wage data in its FY 2006 Medicare cost report.

Scope

Our review covered the $407,915,284 in salaries and 11,573,626 in hours that the Hospital
reported to CMS on Worksheet S-3, part II, of its FY 2006 Medicare cost report, which resulted
in an average hourly wage rate of $35.25. We limited our review of the Hospital’s internal
controls to the procedures that the Hospital used to accumulate and report wage data for its cost
report.

We performed our fieldwork at the Hospital in Philadelphia, Pennsylvania, from June through
December 2007.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    obtained an understanding of the Hospital’s procedures for reporting wage data;

   •    verified that wage data on the Hospital’s trial balance reconciled to its audited financial
        statements;

   •    reconciled the total reported wages on the Hospital’s FY 2006 Medicare cost report to its
        trial balance;

   •    reconciled the wage data from selected cost centers to detailed support, such as payroll
        registers or accounts payable invoices;

   •    selected for testing wage data in the FY 2006 Medicare cost report from cost centers that
        accounted for at least 2 percent of the total Hospital wages;



                                                  2
   •   tested a sample of transactions from these cost centers and reconciled wage data to
       payroll records;

   •   interviewed Hospital staff regarding the nature of services that employees and contracted
       labor provided to the Hospital; and

   •   determined the effect of the reporting errors by recalculating, as shown in Appendix A,
       the Hospital’s average hourly wage rate using the CMS methodology for calculating the
       wage index, which includes an hourly overhead factor, in accordance with instructions
       published in the Federal Register.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

The Hospital did not fully comply with Medicare requirements for reporting wage data in its
FY 2006 Medicare cost report. Specifically, the Hospital reported the following inaccurate wage
data, which affected the numerator and/or denominator of its wage rate calculation:

   •   unallowable wage-related benefit costs, which overstated wage data by $6,567,833;

   •   misstated salaries and hours, which overstated wage data by $5,158,973 and 423,166
       hours;

   •   understated excluded salaries, which overstated wage data by $342,938 and 4,715 hours;

   •   unallowable costs for Medicare Part B services, which overstated wage data by $298,815
       and understated 4,951 hours; and

   •   misstated contract service costs, which understated wage data by $119,817 and 10,533
       hours.

These errors occurred because the Hospital did not sufficiently review and reconcile its reported
wage data to supporting documentation to ensure that the data were accurate, supportable, and in
compliance with Medicare requirements. As a result, the Hospital overstated its wage data by a
total of $12,248,742 (numerator) and 412,397 hours (denominator) for the FY 2006 Medicare
cost report period. Our correction of the Hospital’s errors increased the average hourly wage rate
approximately 0.6 percent from $35.25 to $35.45. If the Hospital had not revised the wage data
in its cost report, the FY 2009 wage index for the Hospital’s CBSA would have been
understated, which would have resulted in underpayments to all of the hospitals that use this
wage index.



                                                3
ERRORS IN REPORTED WAGE DATA

The errors in reported wage data are discussed in detail below, and the cumulative effect of the
findings is presented in Appendix A.

Unallowable Wage-Related Benefit Costs

The Hospital reported $6,668,612 in unallowable wage-related benefit costs. This amount
included $6,009,948 in unallowable pension benefit costs, $348,983 in overstated fringe benefit
costs that were related to other adjustment amounts identified during our review, and $309,681 in
unallowable dependent education costs.

Unallowable Pension Benefit Costs

Pursuant to Federal regulations (42 CFR § 413.100(c)(2)(vii)(B)), “[a]ccrued liability related to
contributions to a funded deferred compensation plan must be liquidated within 1 year after the
end of the cost reporting period in which the liability is incurred.” The regulations further state
that “Postretirement benefit plans . . . are deferred compensation arrangements and thus are
subject to provisions of this section regarding deferred compensation and to applicable program
instructions . . .” (42 CFR § 413.100(c)(2)(vii)(C)). The “Medicare Provider Reimbursement
Manual” (the Manual), part I, section 2142.5, allows for reimbursement of certain pension plan
costs, including normal costs, provided that certain requirements are met. A hospital must
“make payment of its current liability for both normal costs and actuarial accrued liability costs
to the fund established for the pension plan” (section 2142.6(A)). When the payment made is
“more than the lesser of the tax deductible maximum or the total normal cost plus ratable
amortization of the unfunded actuarial accrued liability, the excess may be carried forward and
considered as payment against the liability to the fund of the future period” (section 2142.6(C);
emphasis added).

The Hospital’s cost report included $6,009,948 in pension benefit costs for its funded deferred
compensation plan. The value of the plan’s assets exceeded the value of the actuarial accrued
liability and the normal costs for the audit period. Therefore, the Hospital was not obligated to
make payments to the plan. Accordingly, the Hospital’s payments were excessive payments that
could be carried forward and applied to future costs but could not be claimed for the audit period.
Because the Hospital claimed these pension costs, it overstated its wage data by $6,009,948.

Overstated Fringe Benefit Costs

The Manual, part I, section 2144.1, defines fringe benefits and requires that “[i]n order to be
allowable, such amounts must be properly classified on the Medicare cost report, i.e., included in
the costs of the cost center(s) in which the employee renders services to which the fringe benefit
relates . . . .” Hospitals are required to report wage-related benefit costs—both core costs and
costs for allowable exceptions—on Exhibit 7 of Form CMS-339. Part I of Exhibit 7 is a
standardized core list of wage-related benefit costs.

The Hospital properly did not include salaries related to nurse anesthetists in its reporting of Part
A costs; however, the Hospital improperly included $348,983 in associated fringe benefits and
reported them on Exhibit 7. The Hospital should have reported these fringe benefits in the cost

                                                  4
centers to which the associated salaries related. Because the Hospital included these overstated
wage-related benefit costs, it overstated its wage data by $348,983.

Unallowable Dependent Education Costs

The Manual, part I, section 2105.11, states: “Costs incurred by providers related to the education
of spouses or other dependents of owners or officers of providers of services, provider
employees and provider contractors are not allowable when they are not active employees of the
provider or contractor.”

The Hospital incorrectly included education costs for employee dependents in wage-related
benefit costs, which overstated its wage data by $309,681.

Overstated Wage-Related Benefit Costs

In reporting pension, fringe benefit, and education costs, the Hospital overstated its wage data by
$6,668,612 ($6,009,948 plus $348,983 plus $309,681) in salaries. As a result, after overhead
was factored in, the Hospital overstated its wage data by a total of $6,567,833, which overstated
its average hourly wage rate by $0.58.

Misstated Salaries and Hours

The Manual, part II, section 3605.2, states that hospitals should ensure that the wage data
reported on their Medicare cost reports are accurate and exclude wages incurred for skilled
nursing facility services; direct personnel costs for interns and residents; and costs for equipment,
supplies, travel, and overhead items. Further, it limits services paid under contract to those
directly related to patient care, including nursing, diagnostic, therapeutic, and rehabilitative
services and certain management services related to the personnel costs of a hospital’s executive
officers and nursing administrators. The Manual, part I, section 2102.3, states that costs not
related to patient care are those that are not appropriate or necessary in the operation of patient
care facilities and activities and are not reimbursable Medicare costs. The Manual, part II,
section 3605.2, also states: “Paid hours include regular hours (including paid lunch hours),
overtime hours, paid holiday, vacation and sick leave hours, paid time-off hours, and hours
associated with severance pay . . . . If the hours cannot be determined, then the associated
salaries must not be included . . . .”

The Hospital reported a total of $5,129,574 in overstated salaries and 422,157 overstated hours,
as follows:

   •   The Hospital overstated salary costs, including costs for services provided for non-
       Hospital entities and duplicated costs, by $4,309,642 and 130,284 hours.

   •   The Hospital reported salaries for yearend accruals, including salaries and vacation pay,
       without related hours, which overstated wage data by $644,337. Because the Hospital
       was unable to identify the related hours, we disallowed the reported salaries and vacation
       pay.



                                                 5
    •   The Hospital misstated salaries and hours because of various data input and calculation
        errors, which overstated wage data by $175,595 and 291,873 hours.

As a result, after overhead was factored in, the Hospital overstated its wage data by $5,158,973
and 423,166 hours, which understated its average hourly wage rate by $0.87.

Understated Excluded Salaries and Hours

The Manual, part II, section 3605.2, requires hospitals to report direct personnel costs for intern
and resident services as excluded salaries.

The Hospital did not report $289,913 for direct personnel costs associated with excluded salaries
for services provided by interns and residents. Also, the Hospital understated excluded hours by
3,094 because it misstated total hours related to interns and residents and other excluded areas.
As a result, after overhead was factored in, the Hospital overstated its wage data by $342,938
and 4,715 hours, which overstated its average hourly wage rate by $0.02.

Unallowable Costs for Part B Services

The Act and Medicare regulations provide that, as a general matter, the costs of services
provided by nurse practitioners are covered by Part B, not Part A. 2 The Manual, part II,
section 3605, requires hospitals to exclude from their reported wage index information nurse
practitioner and other services that are related to patient care and billed separately under Part B.

The Hospital considered all salaries for nurse practitioners to be Part A services but did not
maintain records that specifically identified these services as unrelated to patient care and
therefore not billable under Part B. Consequently, we allowed services performed by nurse
practitioners who did not hold national provider identification numbers because the services
could not be billed separately as Part B services. However, we did not allow those services
performed by nurse practitioners who had national provider identification numbers because those
services could, if related to patient care, be billed as Part B services. Also, the reported wage
data included various input and calculation errors. These errors overstated wage data by
$307,586 and understated 5,165 hours. As a result, after overhead was factored in, the Hospital
overstated its wage data by $298,815 and understated 4,951 hours, which overstated its average
hourly wage rate by $0.05.

Misstated Contract Service Costs

The Manual, part II, section 3605.2, requires that hospitals report direct personnel costs for
contract laboratory services as contract labor costs. Section 3605.2 also states that hospitals may
not include salaries for certain Part A physician contract services, such as psychiatric and
rehabilitative services.



2
 Section 1861(s)(2)(K)(ii) of the Act and 42 CFR § 410.75 include care by nurse practitioners as covered Part B
services; section 1861(b)(4) of the Act and 42 CFR § 409.10(b)(5) exclude nurse practitioner services from Part A
inpatient hospital services.

                                                         6
The Hospital misstated contract service costs by a total of $775,193 and 15,525 hours by:

   •   excluding contract laboratory services (understated by $378,255 and 11,778 hours),

   •   including unallowable costs for contract physicians working in the excluded Hospital
       units of psychiatry and rehabilitative services (overstated by $327,688 and 2,496 hours),
       and

   •   making calculation errors (understated by $69,250 and 1,251 hours).

As a result, the Hospital understated its wage data by a net of $119,817 and 10,533 hours, which
overstated its average hourly wage rate by $0.02.

CAUSES OF WAGE DATA REPORTING ERRORS

These reporting errors occurred because the Hospital did not sufficiently review and reconcile
wage data to supporting documentation to ensure that all amounts included in its Medicare cost
report were accurate, supportable, and in compliance with Medicare requirements.

MISSTATED WAGE DATA AND POTENTIAL UNDERPAYMENTS

As a result of the reporting errors, the Hospital overstated its Part A wage data by $12,248,742
(numerator) and 412,397 hours (denominator) for the FY 2006 Medicare cost report period. Our
correction of the Hospital’s errors increased the average hourly wage rate approximately
0.6 percent from $35.25 to $35.45. If the Hospital had not revised the wage data in its cost
report, the FY 2009 wage index for the Hospital’s CBSA would have been understated, which
would have resulted in underpayments to all of the hospitals that use this wage index.

RECOMMENDATION

We recommend that the Hospital implement review and reconciliation procedures to ensure that
the wage data reported in future Medicare cost reports are accurate, supportable, and in
compliance with Medicare requirements.

THOMAS JEFFERSON UNIVERSITY HOSPITAL COMMENTS

In its comments on our draft report, the Hospital agreed with or understood and accepted most of
our findings. However, the Hospital disagreed in part with our finding regarding pension benefit
costs, surmising that we based the finding on CMS guidance that became effective after the audit
period. Specifically, the Hospital stated that, although disallowance of $4,240,513 of normal
costs would be consistent with CMS guidance as amended in March 2008, the normal costs were
allowable based on a plain-language interpretation of CMS guidance available for the Hospital’s
FY 2006 cost report period.

In addition, the Hospital disagreed with our first recommendation to submit a revised FY 2006
cost report to correct the wage data overstatements. The Hospital stated that the adjustments had
already been submitted to the fiscal intermediary; therefore, it was not necessary to submit a

                                                7
revised FY 2006 cost report. The Hospital objected that all of our findings had been reported to
the fiscal intermediary and incorporated in the Public Use File prior to release of the report and
the full and fair consideration of the Hospital’s comments. The Hospital added that it had
submitted a “Request for Correction to Public Use Files” related to the pension benefit cost
adjustment. The Hospital also said that it would work to strengthen its review and reconciliation
procedures. The Hospital’s comments are included as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

With respect to our finding regarding pension benefit costs, in March 2008, CMS clarified, but
did not change the original intent of, its manual provisions on how to report pension costs. CMS
guidance in effect for the Hospital’s FY 2006 cost report period (earlier guidance) required
hospitals to make payments of their current liability for both normal costs and actuarial accrued
liability costs. In this case, because the plan’s assets exceeded its normal costs plus its actuarial
accrued liability, there was no current liability to be funded, and the Hospital was not obligated
to make payments. Therefore, any payments that the Hospital made during the period were
excessive payments that could not be claimed for the audit period. Accordingly, our conclusion
regarding these costs remains unchanged.

After reviewing the Hospital’s comments and information provided by the fiscal intermediary,
we deleted our first recommendation from this final report.




                                                  8
APPENDIXES
APPENDIX A
  Page 1 of 2
APPENDIX A
  Page 2 of 2
APPENDIX B
  Page 1 of 5
APPENDIX B
  Page 2 of 5
APPENDIX B
  Page 3 of 5
APPENDIX B
  Page 4 of 5
APPENDIX B
  Page 5 of 5
